No. 20-843

 

In THE
Supreme Court of the United States

NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., ET AL.,
Petitioners,
Vv.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

BRIEF FOR BRADY AS AMICUS CURIAE
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,718 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 21, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
